..




                          MEICA   LICE AN     DISCI
                                   AN




                                     JU 1986 .
                                  OONTL NU:
                                   P-Ol-86-00064




     Reion I	
     Boton, Masachustt	                       Inor
                                         Office of
                                                         Inions
                                         Office of Anlysis an
                                                       Geer
                                         Depat of Heath an Hu Serice
                  Office of the Inspector General

The mission of the Office of the Inspector General (OIG) is to
promote the efficiency, effectiveness and integrity of programs
in the United States Department of Health and Human Services
(HHS). I t does this by developing methods to detect and prevent
fraud, waste and abuse. Created by statute in 1976, the
Inspector General keeps both the Secretary and the Congress fully
and currently informed about programs or management problems and
recommends corrective action. The OIG performs its mission by

conducting audits, investigations and inspections with

approximately 1, 200 staff strategically located around the
country.
                 Office of Analysis and Inspections

This report is produced by the Office of Analysis and Inspections
(OAI), one of the three major offices within the OIG. The other
two are the Office of Audit and the Office of Investigations.
OAI conducts inspections which are typically short-term studies
designed to determine program effectiveness, efficiency and
vulnerabili ty to fraud or abuse.

                             This Report

The report is entitled " Medical Licensure and Discipline:

Overview. II It was prepared following a review conducted to help
the u. S. Department of Health and HumanServices and other
interested parties gain a broadly based and up-to-date overview
of State medical licensure and   discipline. Specifically, the
report addresses pressures being exerted on licensure and
discipline processes, the changes taking place, and the effects
being achieved.

The study was prepared by the Regional Inspector General, Office
of Analysis and Inspections, Boston Region. Participating in the
project were the following people:

Boston Region                                   Kansas City Region
Mark R. Yessian, Ph. D. (Project - Leader)      RaYmond Balandron
Theodore Wall
Barry McCoy
Jane Wentworth
Eleanor Ellis

                         Headquarters Office
                         Elisabeth A. Handley
                                       . .. .. .


                           TABLE OF CONTENTS



MAOR FINDINGS

MAOR " RECOMMENDATIONS.


MEDICAL BOARDS IN PROFILE. 

LI CENSURE. . 


     FMGS IN PERSPECTIVE

     THE STATE RESPONSE. . 

     OVERALL IMPACT. 

     REMAINING VULNERABILITIES
     THE BIGGER PICTURE. . 

DISCIPLINING
     INCIDENCE OF DISCIPLINARY ACTIONS

     TYPE OF VIOLATION

     SOURCE OF DISCIPLINARY ACTIONS. 

     THE ADMINISTRATIVE PROCESS. . 

     INFORMTION SHAING
A FINAL NOTE

RECOMMNDATIONS.


APPENDIX I, BACKGROUND AND METHODOLOGY

APPENDIX II, BEST PRACTICES. 

                                        MAOR FIINGS

LICESU

    ha be the
    since    1982-1983, the     licein
                         major policy
                                       of foreign :mca grdute (FMs)
                                     conc   of nost bo. cn conce
    relates to          th   auticity of th crenials an                          the :mca
    edcation of PM.

    In respons to            the FM prolem ,     state
    actons. All have agr to us a new an nore clincaly orien
                                                              have         ta nu

    lice ex.         Nealy al have tighteed up their crentials
    verification pro. Ab one-haf have exed the
    peiod of FM reidency              triJ.
                                    Ma have pase laws conce
    medical education standards and have                      be
                                                reiewin an even
    disapproin foreign meica scools. Som have estalised rues
    govem clinca clerksips offer                 their state.
                                                     to FM           in



    'Ies actons have made it nore difficut for FM to be liceed,
    an      incr the likihoo tht those who do
    have vaid crenials an be adeqtely trined.
                                                              will        be lice
    Hower, tw major           vuerilities        re:
                   stre
            offer by the foreign scools. Bo te toeducation
            Most boards canot adequately assess the
                             an exis. An, they fin tht
                                                  lack the
            necsa
            the
            ar to gener
                               us      in   acctin
                                    to see as
                                                        :mca scools
                                                             U. s.
                                                effecve referce
                                                an                                point
            for evuati foreign scools.

            Reidency      trin pro,
            meca lice, te to be inficiently attetive
                                                  gatey to

                                                although a major
                                                        to
            this reality. They often have indeqte crential
            sc    prose , a failin tht is reidency
            in the many states not requiri         trin
                                           esially seiou
            pets.     An, they oft do no sh inormtion on
            reidents' peormce or bevior with state bo,
            practice tht ca
            bein lice.
                                   so unesin invidus
                                      lead to


DISCIPL
    D.in ret yea the inestigatory an disciplin authority of
    mo      boha be incr. However, since bugeta, pen­
    nel, an proctivity               incr
                             haven't ket pace with
    workloads, large backlogs and
    conplace.

                                  exive caeloads have
    'T rate of disciplin actions ta by bo ha be increa­

    ing. The most substatial incr have           the actions
    tht inolve reprim or volunta stipuations, whch are oft
                                    pro.
                                                                      be    in



    agr       toinorm
                   in
                       violations inlvin drgs or alcool se
      acc     for thfou
      In most states,

      of th conc the inpproriate writin of preiption.
                                         disciplin actions. Mot
                                             or nore of all

      inin prortion inlve the sef ab of drgs or alcool.
      Stikly few diiplin acton ar im
      meca mapractce or inte.
      enormously difficut  on   to pue
                                        Bo
                                        beus
                                            fin such ca
                                                                                   on the bais
                                                                                                        to be
                                                     1I leg
      intricacies an th vaiations tht oft ext in defin
                                                                              of the
      able meca
      esati         practce. Yet
                       extions
                                th  mi              th   accpt­
                                                                                   in            midst of
      ininlypulic
                                                                       rens

                                             placin       for action is
                  untele  poition.
                                                                                         bo             in




      Consum an law enorc agenies ar the tw ltt active
. 0
      so of aler bo of posible violations. Prfessiona
      review organizations (PR), :mca soieties , hositas ,
      invidu    physician have be relatively por so
                                                                                                             an
      state havin    mato:r reportin laws.                                                    , even





                                    MAOR            REa:TIONS
      inon
      Peer Review   Orzation

                                 re
                shoud be amed to reations
                                          an Meca
                                             (PR)

                                          exive
      report of ca inonntion to Stte :mca bo.   ancaier
                                                   tiy                 nore

      Finial assistace by the                of Edcation an Depat
      Veteran  Adtion                               U. S.
                            for meca edcation shoud follow the
      educational assistance grants the vaiou heath professiona
      same limitations set            fort           in
                                    progam  of the Pulic Heath
      Service, in that it should be limited to students
      U. S. am Caan scools.
                                                                                              atte
      Meca    fu                for the
      shoud be limte to grdute of scools
      privatel: deignte by HH.
                                             di meca accte             edcation cots            for

                                                                                        by HH or by a

      sta crtial sc re
      '!e Actation COcil for Grdute Meca Edcation
      thorogh
              shoud be amed to         tht hositas (1) condct
                                                                                                      (ACX)

      meca bo          an coct.
                                of reidents an (2) inOJ: state
                  of reident peormce

      education   co
      HCFA should consider examof

      practice medicine in the u.
                                    the effec on
                             bein suidized who ar
                                                     meca
                                                  Meca
                                                     s. or paicipate
                                                                               in
                                                                              in
                                                                                        ineligible to
                                                                                                         upn
      coletion of reidency.
      Reew fee ched to                  practicin physician shoud be increaed
      suficiently to  surt
      met activities of state exion
                              meca
                                    an
                                                          bo.iIroemt of the enorc­
                                   MEICA OOA1 IN PRFI

In th                  Meca an Mecad pro we stain up, state
          mid-1960s, as the
medical boards were little
domte alt colety by noice          intrtaities of state govert,
                            physician. Mot wer autonom boes, havin
little optiona inction with oter octiona licein bo or even
with :mca
coer bo             bo
                    in oter stte. Whe their rensibilities tyicaly
                    lice
                      an diipline, they teed to foc on the fonn an
    paicuar.  on the developt an admsttion of their ow licee
ex.
in

        '!ey wod diipline physician, but ony ray, as their autority
an inclintion to do so we qute  limte.

A decde late, th bo we caugt up in the stirin of
                   adds the physician shortge            che. The
                     rete
the  nu
nationwide effort to
            of meca         lice                       in a
                              bein issued (fro 9, 147 intial
                1975) an in the prortion of intial licees bein grte
                                                                                                           sh ris
                                                                                                              licees
1965 to 16,
to FM (fr 16.
              859   in



to the colexty of the
                          petlice
                        in 1965 to 35.           1975). Ths
                                 job, an, as conce
                                                                   added
                                                                       pet        in

                                                                                            be              gr
bo
shortge to a swlus of physician, it
       to diiplin physician             unrofessiona corxct.
                                             engin
                                                             be
                                                          to shft fro a
                                           to inteify pulic pree
                                                             in




     enirnmt of statenu
Simtaly,  ther we        of oter developts jarin
                       th bo. sh
trqu
                    ex gr re an autorities of
                                                                                                                         the once
                     :mca
            an to in
                                               mapractice
         ta
       ma state to
                                                                                             ris      in
actions led                                                                    upn whch disciplin action
the boar. cons moemt, raisin co ab pulic acct­
cod be                                       the inestigato:t

ability, coibte
                    The
          ce agency, incrin    nu of bo (1) bein uner
                           to an
                     (2) havin non-physician me , an (3) facin
                                                                                                                              the
aegis of a
sunset reviews. (The
assessin th
                        sut legislation, herded
                                first
                    overl usfuess an        agencies, wa
                                                        device for
                                                        effeciveness of
                                                                                                    as a
              ) An
Colorado in 1976.      widesred adopon by th state of th Feder­
                              , the
                                                                                                                    Pa


ation Licein Ex
Meca Bo, rece bo' prtion with extion issues state
                            (FL), deelop

                                                             whe
                                                                  in         1968 by the Federtion of

                         an reiproity.
fostein intestate tmfonnty

meca bo to undeopts wer ac.ed
By the mid-1980s , thes
                                   peiod of
                                             by oter tht caused
                                            che             ex­                                  they have
newpe ex betin bo for not adeqtely protein the pulic;
                                   the not           inte
ience duin th pa cetm. Thes developts                                                  include the pulication of

the estalisht in the caib bain of prorieta meca scools      gea
                            irvidus rensible for the widesread
to u. S. citizen; the conviction of

the disceJ of cheatin                scs
distribtion of fraudent :mca crentias inolvin tw of these scools;
                                 inolvin the FL an the extions
given by the Edcationa Cossion for Foreign Medica Gradute; the
of allied heath professions; an a send genertion of meca mapractice
crise .
In the pros , mo
th-one
                   bo have unerone major trfonntion. At
         of them ar nCM uner a cetr agency, coed with s
                                                                                                                            leat
1969. Nealy all have at lea one or tw non-
                                                     1965. Mo still
                                                                                   physician        me,     wher
one-half had no such me
osteth, bu also for a     larer
as poatrist , physician assistts,
                                             in

                                                     nu
                                         other octiona
                                  nu ofmidwives,                   such
                                                 physica therpists, an
                                                                                         have      rensibility for
                                                                                                           gr,
emergency medca           tecian. Mot                       have nore            bo me, who fin
                                   .. "'--.._-      ..- -'-
                                                         );     - - ,.   ...      -
                                                                               - '\ -                               -.-




     necsa   to devot considerly more ti                                                                    th did their pree­
                                          thes me ar tyicaly
                                                                                        to the role
     cesors. Paid an averge pe
     appinte by the Goemor for       to six yea an, at
     more popou state, te to sp at leat
                               of
                                              days a yea on
                                                            thete th th
                                                               diem of         ab $50 ,
                                                                                                                           leat             in



     buiness.

                        , meca bo reenes derive entirly fro fee iIse

     In nealy all state
                           ab twth   Usuly
     fee paid by lice physician; the reiner co fro extion
     on physician.                                        co fro fee
                                                                  reew             of ths fee        inco



     fee ched to th see                   lice
                                        on the bais of
                                       enrst            lice aldy      or
     in anoter state or of
     Bo    of Meca                    Ex.
                               (Th is the       rote to
                                                                     held
                                   of a ceificate reived fro th Nation
                                               us              for grdu­
     ate of U. S. meca scools. ) Bo ar tyicay pa of the state buget
     pros an sujec to the sa bugeta an pennel contrls as oter state
                                                                                                             lice
     agencies.
            rens
     In
     or
     in
        th
     have
             yea, have
                        exedret
                             to their
               raise their fee

                                          in
                                rensibilities an workloads, nealy all
                                    yea. Reew fee, whch usly coer tw
                                 fro an an
                                              in

                                                    abt
        1985. ('!s coer a rae fro no cut reew fee in Pelvaa
             Connecicu. ) Yet , if one ta inlation into acct , (usin the
                                                                                          level of            $31     in     1979 to $51


     Co
     $160 in

             Price Irex), ther is hay a: net incr. Th , added to the
     fact tht bo ar't nesaily allow to sp
     fro fee , ha left ma
     inesigato:t an adtrtive
     hae th job before
     have grown to
                         them.
                                    be an            alt
                                                         re
                                        an exy vuerle poition, with
                                            wel beow th level necsa
                                                     of them
                                                                     collec
                                                                    in



                                              :mca lice an discipline
                                                        Thus, even though
                                                              $50 milion a yea enterise, ma
                                                                                                all the noney they




     officials fee as                 though they         ar swim uptr.
                                   ANNUAL STATE MEDICAL LICENSE

                                            RENEW A L FEES

                                   .1979 - .1985 (SELECTED VEARS)


                                                                                                   U. S. Ave:rage
30                                                                                               InElation Adjusted
                                                                                                             Ave:rage
.10
          .1979
     Sou:rce:
                                 .1980 .1982 .1983 .1985
                           AMe:rican Medical Association &

                                 ta te Medi        cal Boa:rds

                                                                  LICESU
               tiI
     gener reqemts: (1) accptale
     OVer


                                  pena
                                      bo have
                            co to judge applicats
                        , state
                                          attribte
                                                  on the bais of fou
                                                    (usly
     law as "so mora chct"     (2) grdution fro a meca scool; (3)
                                                                                                                                  defined



     pasage of a meca licein ex; ar                                                 (4) coletion of a spified                               peiod
     of grdute meca edcation.
     In ths pros, the bo , as ealy at the 1930s be to exres conce
     abt  the licein of FM. However, it wa not until the ealy- to mid-1980s
                       a major on, revin nationde atton. '!
pripitati    ev   wa th dilos
                                                               thpJ.
                                        S. Po serice of a netwrk
that the conoe 





scls   in th          ca
                      ar. Alar by th dec:, ms de
      ible for th diibon of seer

                     cc
ou to tighte th aplication am veification
                                            fak meca
                                                       bo   fr
                                                          by the U.

                                                             set
                                                   In th pros,
                    ab th adcy as wel as th autcity of the
edtion of ma PM.

th




              errsofisththedtion
Widey
th
trl.thAn ph
''! quity
         on tht
                         cr        on.
                                       on Stte bo exve dir, wh sad:

                                 view of
                                     be It  reved by Fm is a 1mch bigger issu
                                           is an ise tht is les with ou con­
                             is no coin to th ca scls.
Whe
officias     th no
                thtst
                 tht
inerior to U. S. meca
                     JO
                              t:
                                 th
                              rnlm    of ar a



                                    scls. 'I                 ex
                                                      foregn scls
                        of th scls, esiay th ne on , ar far
                                                    pacuar c: ab
                                                                     exen
                                                                                       re.
inadequte clinca
  s. an
Edti               ca
                 scls ar  am
       on (ro), a bo cailed of
                                     by
                                       ;Idmission
                                      accte    i;li
                                           :rretive O:tt
                                                     mi




                                                     of
Asiation am th Amca Asiation of Meca Colleg (MM). '! ra,
                                                         CUy
                                                        th Amica
                                                                thon Meca
                                                                     Meca
hoer,
enty do
         do no acxt scls aIid of th u. s. or
               at   th       pr.
                                    No u.                          ca.
meca
                th co
In th ealy 1980s,                   ga
        rYmity . A Nov 1980 GA rert proided forc
                                 we al
                                                    fu.sa   in th broer

th bais of onite reiew of six forign scls,

       tr.                                         re
                                                    Caib   of the
region, it docented num deicienies
                                                               the
                   thft, bo re tht
                                                                                        th          in

                                          ,  pacuarly      with
clinca
pase
  th
to getlice, grte
ical schls.
               be
                  SO
       a reluton urin Stte meca  in JU 1982 , th AM Hou of Deegte
                         of meca scls meti
                           officia
                      onf ye acxti bo
                   set fort byth ro, th
                                            to
                                                     S. me­
                                                             . Fm , in ord
                                                                  eqvaent                    st          for U.


quity of edtionbyJ:ve, b.c:tt
                         Ony tw am
fin rert 
            i.s5      on :m
                                 th AM'      foc no
                          on wa to facilitate th lice
                                                                     ealier, in 	

                                                                               affai
                                                                                                            1979,
                                                                                                               on
inlve of De in th Amca meca sy.

As th co. ab EH wa riin, so to wa th nu of F! revi

inti Sttean lice fr
:rre
in  inti  lice.     fr in
                    Alth 16. 6 pe
                        3,
                             th            pe
of 1973, wh 7, 419 EH (44. pe of th to) we gr
                                level wa still
                                               of
                                                  (se ch). '!
                                           131 in 1981 to 4, 753 in 1983
                                                   all thos rev-
                                                      to 23.
                                                       th pe yea
lice, th reon of th               C0itib to th un bein felt
                                                            inti                       wel beCM

ma state bo officis.                            gr



                                 INITIAL LICENSES ISSUED BY
                                    STATE MEDI CAL BOARDS
25   000
                                                                                                            gTo tal

20   000	                                                                                                   8FMG
1.5  000
1.0	 000

   5000

                     1.965       1.970               1.975           1.980                   1.   983

     Sou:rce:        AMe:rican Medical               Association

                   '!

  is
 By 1983-1984, in       th Stte     ac:        the grt
                           S., th licein offorFM                      be tyicalypractcin
                                                                              majority of


                                  grte bo.
 physicia in
                                       extu th licein, re
                                                  had
        th ti
                  th U.
       facin th                  meca                                              policy
                                                                                        the        prer


 for tw to
                        Stte                                Disiplin, whch       accts
 ar of co, poin ma imrtt policy ises. Hoer, th uren   a vita
 w1ility po by th FM prolem teed to brin it to th foret. an
 m: IN PEPE
 In th ealy 1970s , wh foreign nation PM (FN) we actvely bein
 sot to hep fil th u. S. physicia shge, mF
 grt            FM se lice in th                 acc   for th
                                                                  ca.
 hc,    th  sitution ha be to che, bo beus ofByththtighte
          majority of                                                                                          late 1970s,
  S. iJgrtion law am th emen of th caib scls gea
  S. citien.       is reflec        reative prorton of USFM an
 FN
 FN    pacipati
       acc         in accte by thereiden
                       pe    of th to   CO pro.     Wh
                                               with 6. pe for
                                                    U. s.                                                            in 1979
 USFM, by 1984 th slipp
 (se ch).                     pe whe USPM ro
                        for 12.
                                            to 8.                                                  to 9.



            PERCENT DISTRIBUTION OF FMGs IN ACCREDITED

               RESIDENCY PROGRAMS. USFMGs a FNFMGs

PERCENT
                                           9?9 -      984
                                                                                                   .FNFMGs
                                                                                                   ESU S          FMGs




Sou:rce:     AMe:rican Medical                Association
 Sin  1984, th prorton
 iJgrtion contls         retrctof USFM se
                                  FN have           as the
                                                               lice hanuin.
                                                              re  of U. s. ci­
 tizen grtin            fr foreign scools ha
 report cite an este tht ther ar 13 000 to 19, 000 U. s.      coed
                                                      to ris. '!e 1985
 stin mecin
 GA  re.           abrod,            co
             Oter ober are tht the late esimte
                                  to 10 000 to 11, 000               the 1980­
                                                           is a coiderle
                                                                              e.te
                                                                                                          citizen

                                                                                                             in




 enllin in foreignthtmeca
 exggertion an         for th pa yea or tw the
                            scools ha be drin signficay.
                                                                         nu
                                                            of U. S. citizen


 Of the    nely arivi USFM, itapp tht the great majority have atted
 scool in the Doca                           is sueste by the fact tht
 of th 5 026 Amica who tok the 1984 EC quifyin ex,
                               Repulic or Meco.



 pet)    wet to scool in the fo:c an 1, 277 (25. pet) in2,    079 (41.
                                                            the latt.
 Among FNFMGs , India and the Philip:i app to acc for th                                                                 maj or
 concetrtion .

 Finly, whle the FM
 presin in sa state
                             isth oter.
                                    peive is a               one acrs the            cotr, it
                                                                                   is nore

                                                                    latet yea for whch
 data ar avalable, 56
 six state: NY (12. 5); NJ     pet of PM grte          In 1983, the
                                                                 intial               jus
                                                                                                    te of th
                                                                              lice we                               in


 Perhaps of even more          reevce ar th                  ras
                                     (12. 3); MA (9. 4); GA (7. 6); MD (6.
                                                                      of FM
                                                                                          9); an CA (6. 8).
                                                                                              in
'!


prortion  of all inti
the 1983 data               , N.
                                       lice(72.theypet),
                                    ra highes      acct forfollow
                                                             in a state. Her, usin
                                                                                                         by ME (68. 0);    FL
                                                                  0); an
                           maer, it is appt tht nu of the less popuou state
 (54. 4);
Viewed

also have a
                 in    thsignficat
                      MD(53. 3); GA (47. 8); IA (45. 4); NM (44. 7); MA (43.

                                         the lice of FM.
                                         st           in
                                                                                                                  SD (41. 6).


TH ST           REro
state
six maj or
             have ta ma
                                    to
                                        renseachtoofthewhch
                       canen th state rens,
                                         intiatives     FM prolem. '!er
                                                           in

                                                            is addse beow.
Meca Edcation
While state laws have                          required tht
                                                    :mca lice          applicats for a
grdute  of a :mca scool , thy tyicaly have offered few if an spifics
conce the sutace of tht edtion. However, as the
the edcation exience of PM have gr, ma state haveconce    amed
                                                                 abt
                                                                these
laws along the




sta
                 of the AM relution cite ealier. D.in the
yea, at lea eight state have enct
                             line


                                                                  rets tht                                        Pa fou
                                                                                                         all applicats be


                  I. st,
graduates of schools that meet or are "sutatially                                                       eqvaent" to the

                        set by the ro. SO                  oter state
                                             the bo'ches tht
wer no tied to the
                                             sbnlar                              have mae
                                 bu tht made clea                                                                s authority
to approe or dipproe a foreign :mca scool.

Conced tht
of referce for assesin foreign scools,
gudelines tht set fort nore detailed
                                         st
    state tht ha estalised the no exctin rets
             the I.          did no proide a            fra
                                                      an tht, for
                                                                         th Caiforna
                                                                                                   is Caiforna.
                                                                                       suficiently exlicit
                                                                                                   bo       in   1983 issued
protection reasons, applied to u. s. asspifications
                                        well as foreign grdute. '!es
specifications, whch                                 late 1985, cal for
                  c:lete th-tw
                                         we enct                into     state law           in



  nu
applicats to have
        of identified sujec. '!e inction Imt encos 4, 000 hou
                                                                       month of meca intrction coerin

clinca inction, at lea fift-fou weemi
actual course work over fou yea an            of seenty-tw wee
  nu
apptu           hoita. of the
                                         of
         of addtiona spifications conce the affiliation an a hosita.
                                                           suis:t                    whch Imt be            in




                 foreign scools met their sta , Caiforna an at
In assesin whether
lea tw oter state (NY an NJ) have visite a
in the Caribbe ar.                             of the scools, mainy
                      Oter state have relied on mateial set by the
                                                                                     nu
scools. Awa of the lbntations of th                 fift-fou licein
mein to em
jurisdictions that are part of the Federtion   agr
                                       approch, all
                                                    at the 1984
                 the Federtion to collec inormtion on theirbef. in
rens,
tu,      it estalished a Cossion   on Foreign Meca  Edcation whch,
      develop a coreenive assesmt questionnir tht it will se
foreign scools idenified by state bo.
inonntion, co followup site visits         '!e Cassion
                                                 necsa, an then pas
                                                                                                          will reiew the
the inormtion on to the
unery.
                 stte.    At ths tim, ths pros is just gettin
                                                                        as it feels



         num of state have disapproed invidu foreign scools

Thus far, a
ther denyin
        legtheir
have led to
                       lice.the'!es
                 grduteDefer
             chlenes.                  actions, not unexy,
                                  suts ha be a costly am til
     cons
     retly inpros for so state. It ha rete
     sta,     Nort Calin.
                     the suts have
                                                     Yet   in
                                                                                     in a few set-back , one
                                                                  Caiforna, whch ha th not
                                              be succsfuly defened.                                              strinent
     Clinca Inction
     Beus the clinca
     oft obed



     ta
                       s. hositas
                          in       ar   tr
                                      S. stuents
                                      beus   of conce
                                                        caib
                                                       of U.
                                                      abt
     supervision these stents reive , a few of the nore
                                                                  scools is
                                                           the ext of the
           action to contl the clinca inction offer poou state have
                                                                                  att
                                                      to foreign stuents in
     their state.
  The Ir forcfu
  dents fro ta   action ha be by Pelvaa; it ha preluded foreign
                                                                      st­
                                     in the state. Oter
                                     clinca clerksps
                                                                  , ar
  have allow it
           ths re,             pat foreign scool ha be approed by the
                               but only if the
                          Jery ha develop the not exlicit set of st­
                                                                                            (NY, NJ , CA              IL)
  state. In
  ar. Amng ot ths             cal
                                        New
                                           dir
                                             to succsfuly coletepro
                                                   of the clinca
        eqvaent to the fift an six se
                                         , they
  be accptle to the state an for each stent
                                                                   trin
                                                                for the

  by the
  New Jery as wel as Caiforna an
  meca science ex before they bein
                                                     S. meca   scool.
                                                                New York   re
                                                                           trin.
                                                                                  of U.
                                                                                     stuents to Pas a writt
                                                                                                                    Also,

  Te,
  concerning the
                 ta
                 sot
                supervision proided to
                                              differt
                                  approch, intu
                                                of
                                                      in 1984 a
                                                   foreign
                                                                 clinca

                                                           scools whostents                                     reation
 taking their clinca clerksp in the state. It
                                                                                     mate tht
                                                                           so doin cefy to asuisin
 physician registe with the
 spific corxtion
                                   ar

                                     goer bo
                                       in

                                                    their role as     suisor.                                   rn
 Reidenev          Rets
May have       to regard grdute :mca edcation as a
                                                    me oflevel
assuce, ascome
            a way of assuin the developt of a
                                              cein         quity
                                                                                              mi
clinca cotece. Thus, an incrin
 lice                                re   of state      amed
                                                                of
                                                                     nu
               meca scools.
exive reidency trin for FK th for
       laws to         nore                        have      their
grdute             of U. S.

with Masachustt'
           req    :iition
                  at  leat tht mi   yea reidency 
   of a one
State naw
                                      amt of grdute meca edcation                                               1985, all


                                               lice.
                                                                                      ret             in


    an accedte
in

to the FM prolem, at leat twenty-th state
yea               trin
                               pro


                                          re
                                         in



                           an at leat fiftee mate th yea
                                                  FK to        rens
                                               order to be eligible for
                                                        have tw or
                                                                                                But        in




trin.
yea of grdute
Verification
                of reidency

                                tr.
                             also reir
                    At leat fou state                                     u. S.   grdute to have tw or more
                                                                                                                 of such




bo            Inrs'
      to ta a clos
The U. s. Posta                                      disclos on phony credentials pro
                                                               pro.                                               state
                                                                                                                 ret,
                                                     thes pro.
nealy all                                look at their            verification                        As a
                   have made ch'es             in


At their core , theches reflecnore thorogh
reviewin applications. It isinolve a             an leny pros for
application fonn calin for, amng otherby the developt of more detailed
of all          trin an emloyt exience;ths,
                                        by rets
educational credentials and ceified trlations;      to preent
                                                                                  a ful chonologica listin
                                                                                                                origin
inolvin fib contet anysis of dOCts              by verification effort
                                        , finer printin of applicats
                                           '!, 


an bac: ch by crim jusce
diiplin acton rert tht inIprate all th form action ta
                                          grte us                  agencies; by a                    of the
Stte bo am tht ar diib on a mny                                                       th Federtion; an
AM. As
applica to
           a   fu
                ap pe iniew.re
by a careful review of physicia
                                ch, so state also
                                    for a
                                                        so or, in a few
                                                                           bais by
                                           profile inormtion made avaable by the
                                                                             all                 ca,
Reiden Tr:i Pets
                                                                 is a gatey to meca lice.
Entr to a reide
re thtbo,reide
          if it ob
recogition of that
enles a
                                                      progam
                                                  a reidecy
                                           ha suficien              t: pro.

                                         about onhaf of al th Stte, for so
                                          t:




                                                                stf re,      lice.ch
                                                                        pet bac:   '!  or
                                                                                                 tU , have

                                                                      re
                                                                               to do a
on th an         to trck            th         prog    ion :i a   reiden
Am    th Stte tht have ne eslised      such a        ar ma of th

more heavily populated on. '!     is beuse   of th admtive buen
                                                                      coct bac: ch
    tr, tr.
involved, the short time frame available for
betw th tU a phicia is acxpt in a reiden pro an th bein
th
for reide
                     an th opition                     of meca scls am              hoitas reible
           inquies co fruden crtials                      so
th Stte toen.
           be '!DJrehaawa
However, their
                            of th
                             no obiouly the ca     ex     at       vuerilities tht
                                                                                       have led


                one-thbe
vita poin of
                        of th PM in accte reiden                                       in New York,   whch
                       ta tht                sc
accounts for almost
poition in   s.
            th U.
                      fou    forc appin
                                 th cria              to exe                 by th goverr
                        in th state wa exy
the phony credential issu
admion to                                            pros                                                 for

issu by fin an
                pram
re              Dean asiate retion                   Oc                                lilte am
                  reide

qute. '!t                                                                      led to an                1984
                 th Stte of Heth tht set fort detaed verification
            for heth ca facilities. '!ey we follCM by works to hep
th facilities              roe
                          deop an          th ar.        tequ        in




In 1985,   th Stte,                   intu a ne an DJre
practice orien FL, th ex tht al FM 11 pa                 cote/
                                                       lice.
                                         via the Federtion,
                                                                '!
fir adtrtion       of th ne ex wa in Jt 1985. '!e overl peo:r
                                                                               prior to


                    ta ta
       te wa abt th sa                                    pe    c:
on the
the repete
pe
ch)       of all PM
                    th te   as in the preiou yea.
                           faied,
                         it faied,
                                           with 65
                                                                c:             pe
                                                                          with 43
                                                                                    Hower, 75
                                                                                    pe    in   1984, an '50
                                                                                               in 1984 (se

                                                  FLEX RESULTS


    TOTAL                                                                              .June.. 1.985
REPEA TERS                                                                             E:June.. 1.984
         FMGs

   US FMGs

   FNFMGs



                           PERCENT FA I LED BOTH COMPONENTS
Sou:rce:       Fede:ration o        State Medical Boa:rds
ce,             policies inolvin the admsttion of the FL -
state have differin
      for ince,               ta,            tw pa
                                                                                                                         con­


                     the ex aft a cein nu ofre
                                   when it ca be
                                ca ta it
                                                                              whether the
simtaeoly,                                      pasin.
                                                                                                               ca be
duin the pa      ma tilor how
                              nu
                       few yea,
                                   one       without
                                             a      tht
                                             at ts (usly the),
                                                                     of state have
                                                                                                                  However,
                                                                                                              applicats who
                     ta so addtiona trin
do not pass
wil have
again.
                to                                       ta it                 before bein allowed to

Finly, it shoud be        addtion to the FL,
st
state re
         ex
       an ora           lice
               usfu addtiona checpros.
            as pa
                     it as a
                                  note tht



                                   of
                                          Bo  of the
                                                           in                                    a few
                                                                                                  officials

                                                                                     an applicats' knowledge
                                                                                                              state adm­
                                                                                                                   in   these
as well as thir         capacity to               cocate                 in   Enlish.
OV       IMACT

In many states , the FM
pros       grdute
         , for                     of U. s.
                                               prolem seed      to trform
                                                       :mca scools as well asthe  entir
                                                                              for PM.
                                                                                                                  lice
                                                                                                                   dir
of state  licein,            in    on of the               mJre        poou state in the nation, obed:
       "Licein her us to be                                no
                                          nore th stain -pros. If
       you pase    the ex, yo wer all set.
       the FL cheatin sc an then the fraudent crentials1982, with
       Now , with all th reform we' ve made, ou stff is
                                                                                '! ched
          in




                                                                                                 sw. sc.
       many thousands of applications on file
       pros even the roine ones.
                                                           We have
                                                                                   an ta         much longer to


In most states , the transfonnation ha
however, the greater scrutiny of applications
                                                                              be less drtic. In gener,
                                                                                  fro FMs ha
                                                                                         led to nore
thorogh reiew           of thos fro U.                       s. grdute    as well. An, beus staff
increases and                                              have not kept pace with the added buen,
                                                           have be widesred.
               computerization
prosin backog      an sla-CM
Somt less nocele                  the pros , the reiproity moem,
            pro
whch had gained so motu, ha be setback. As they have tighteed up
                                             is tht             in



their ow            an rets             state bo have be incr­
inly  wa   of automticaly grtin , malice    to a physician already havin
one in another state. One bo exective dior reflec the mi-set of

licein      pro
many board officials when he said: "Why work
                                                       imroin you ow
                   an disciplin you ow docrs if you go lice oter
                      did tht
                                                                                       ha   in




       re
by mail? If we                       we'd be much more vuerle.
With
pages are having a
difficut for FM to
                    to the   FM prolem, the state actions
                              substantial overl iIct. They
                                  belicen
                                       lice. They ar
                                                                                     desibar           on the
                                                                                                ma it more
                                                                                    addi to the likelihoo tht
                                                                                                                 pro
those who do obtain a              be adeqtely trined. An they
proidin the pulic with grte will
                             assuce tht invidus ar not slippin
thugh the pros with frauduent credentials.
REG VUILI
Notwithta the abe developts , ther ar two major vuerilities
                              concerns foreign meca scools; the other,
trin pro.
that remain. One                                                                                                 residency
                                                               "'!

with    re
unea. '!eytosts the scools, bo officials in not state still feel sowht
                     tht they do not have the
suficient inonntion ab the scools. '!ey ar hopfu    or exise to obtain                   re
                                                         abt be aFeder­
ation' s inonntion gatherin effort , bu te to feel tht it will the
long-te pros.
                                                     slow


Bu even      if
                        gr
                  c:lete an accte inonntion                                                   is     obtained, not                       bo fee

they are on sha
proision tht foreign scools met
                     I.            sta
                        in disapproin
                        is of so help. Yet, the I. sta ar qute
                                                                                     scools. A state-level statuto:t
                                                                                       whch ar sutatially eqva­
lent to thos of
gener. As one        bo official note: "I. sta ar not
sta
or sutative. '!ey don
             for lice.
                                   t give us               mu to drw upn in estalish cuicua
                                                                                                                                     ver cocrte


Also havin a      bein on stte delibtions abt foreign scools as well as
         gener is the fact tht suficient politica suport for toghen­
on PM   in

up frequently does not              exi.
                              '!s is esially           states tht have
lare concetrtion of practicir PM anor rey heavily on FM reidents in
                                                                                                            so     in



cein hositas.
tht zer in on foreign grdute an a suicion tht togher lice laws
                  But, ther        all state a seitivity to effort
                                             exsts                    in



ar ined    to pro
th the heath an        safety of the
                                      of the practicin physician nore
                                th ecnomc

                                                pllic.

                                                               inte




'!us,
action
        ar bo PM.
        conce         officials, there is a                      considerle surt for so nationa

                                                               retions,             fea tht such
                                                                      thebeuse they                       re
                              '!ey have
action cod
           sa ti ma fee tht they nee help. Along ths licein.                   of state
                  lead to   Feder incuions                                 into
But , at the                                                   line, one
state board director commented:       shoud be a Feder level effort.
state ar to clos to their constuencies to do the job adeqtely.
The other major vulnerability, involvin reidency
reived less pulic attetion bu may ver well                                                                       trin  pro,
                                                                                                                    signficat of the
tw.   One prolem her, tht conce indeqte
reidency pro dirs , ha aldy be note.sc         pro by the
                                                                                              be the more


York have ta ilrtt intiatives in ths ar,
                                          Whle Caiforna an New
ret   , so
who for vaiou
             FM an peps          meca    ma state
                                        grdute ar have not. As a
             rens shoud not be admtte. An exle of ths sort wa
                                                   bein admtte
                                             even U. s.

proide by a hosita official who           upn             leaed tht a num
                                     be admtte to reidency trin poitions
                                                                           so          inqu
foreign nationa FM had                                                   even
though they didno have a Visa allowin them to           sum trin­                             paicipate                        in


Another prolem inolvin reidency
on to the board infonntion conce the peonnce
                                                           trin pro
                                               is tht they seldom pas
residents. While the Actation Cocil for Graduteanor  Medca
                                                           bevior
                                                             Edcation
(ACGME) re an evuations of reidents,
                                              pro dirs ar not
inclined or accto to shin those assessmts with the      bo,
reident peonnce     is Ultisfact:t.                          even when
                                      Worse yet, ther ar inications tht
some hospi tals, when disstisfied with a reident' s peonnce duin the
firt ye, will ackowledge the
but then not allow him or her to        the
                                                     c:letion of one
                                                                                               pro.       yea of residency                trin
                                                                                                                                         nealy all
the state for U. s. meica scool grdutes an abt
                                                     contine                    in                                      Yet,



                                                                                                            mi reqirt
                                                                                                                                    in


  , tht one
lice.               yea of       c:lete trin                                         meets the
                                                                                                            one-haf the state for
                                                                                                                                               for
'!                                                 - - - -          - - -              - -          --




Even for
action betw the
                     thos caletin
                     pro   an :mca  bo capro,      a muti-yea
                                          have seiou
                                                                                    reidency                                    the lack of               inte­
          is illuste by a ca inlvin                                                                                                           consence.
he      wa practicin
an had atted
        the latt
inesgate on ches ofmeca
in
                                an   retted

                                reiden
                         stte, the
                                                    tr.bo,
                        se ab in his fonn state. rre bo be
                                                             in         anoter state
                                                                                       a physician who left a state



                                                                                   Shrty       af   estalish
                                                                                                          in     licee
                                                                                                                    whch he also had
                                                                                            ino:rly, hea tht he wa bein
                                                                                                                                                 a
                                                                                                                                                    whch
                                                                                                                                                     in



                                                                                                                                              his practice


its ow inestigation an upn obta his reidency pro
tht duin tw of the
protion
                          yea
                       for ches of
                                              thse ab. rre bo
                              of his trin there, he wa inte
                                                   rerd, leaed
                                                                                                                      had never         be inorm.

                                                                                                                                               on




'! BIGG               PIC'

As      iIrt as state bo
ar oter developts     ocin                           actions                  ar       in    alleviatin the                     FM prolem ,   ther

                                                                                                                                        consential.
Two of the most notale
poitions an the peormce on    EC ex.          accte reidency
                                                    conce the
                                                                  tht may proe to be even nore
                                                                                       availability of


              re
                                                                  the

with      to the fonn, FM ar fin it incrinly difficut to gain
entr to accte reiden trin pro. An iIrtt incator is the
pro            nuthe nus. :mca
nain angapthebetw          of poitions        accte reidency
                                  scool grdute. Fr 1979 to 1984,
                                              of U.
                                                                                                  offer                    in




                      POSITIONS OFFERED IN ACCREDITED RESIDENCY
                       PROGRAMS & U. S. MEDICAL SCHOOL GRADUATES
        000                                                  9?9 -
                    984
2 0 



        000
                                                                                                                    Posi tions                        ed in
                                                                                                                    Acc ed. Res               i d.        og.
        000                                                                                                                S. Medical School
        000                                                                                                                       adua tes
        000


        000


        000
                                               984
        Sou      ce: National
               9?9        980

                         ican Medical Association &

                         AMe
                              Residency Match P

                                                              982                  983




      ha grduly be closin - fro 2, 858 to 2, 133 (se ch). '!s
the gap
esially omou for PM, beus as meca edcators widely ackCMledge,
          te
FMs       to be
not available.

                         seec                 in    thos            pro                     only when u.              s. meica grdute ar
In assessin this
in      its 1984
                 occe,
           clec1:,         the Nationa Reidency Match Prog (NR),
                    state: ''We ar rapidly accatin   a sizeale pol of
physician who ar not eligible for lice.           the sa pulication,
its statistica report incate  tht foreign nationa FMs (FNs), if they                             " Ar,                in



remain in the U. S., will be                    th pol. Wherea theover-represte
proportion of U. s. seniors succsfuly matced with accedte residency
                                                                                                               in



pro     ha reined at abt 92 pet fro 1981 to 1984 , the proportion of
succsfuly matced FN ha declined                                                        fro 45 to 22 pet
68 to 44        pet (se ch).                                                                                                          an USFMs fro
               . . . . . . . . .-"-
                                 . . . . . ., .' . . .-"-
                                                       . . . " .-' -.. . ' .- . -. -. .- .. . "' -. -....
                                                                                                       - -..   ... ..-. --..             .- ..-..-..-.. -. ...-...
                                                                                                                        ... .." . .,-......
                                                                                                                                       -...                    . -. ...- .. . ..
                                                                                                                                                                              ......




                    PERCENTAGE OF NRMP APPLICANTS SUCCESSFULLV

                        MATCHED                            U. S.               SENI ORS                              U. S.               FMGs                     FNFMGs
     1.00                                                                        1.981. -                      1.984
                                                                                                                                                                                              U. S. Sen i o:rs
                                                                                                                                                                                                  U . S. FMGs
                                                                                                                                                                                                       FNFMGs


      1.0
            1.981.
     Sou:rce:	 Na t i onal
                                                           1.982
                                                               Res            i dency Ma
                                                                                                                   1.983
                                                                                                                    tchi
                                                                                                                                                                           1.   984
                             P:ro g:raM ( NRMP)
Also of note

granting of an
accredited residency training
                                in        the private
                                             ECF ceficate, whch
                                                         pro.   re
                                          refin verification pro an tighte
                                                               Tht
                                                                                 ser
                                                                            PM entein
                                                                         reflec
                                                                                                         is the                 incred rigor assoiate with the
                                                                                                                                    is                       of all
                                                                                                                                                       rigor is                                                 by nore

so bo officials feeex
exensive and
administion of the
                    tht the lattdiffert pa             (though
                                 prets a continui daer). It is
                                                                                   the
                                                                                    given in                                                                               of the world
                                                                                                                                                                                              seity              in




also reflec by wht is widely       as a much nore difficut meca                                     reed
science exam. '!t ex , th Foreign Meca Grdute
                                                                                                                                                                                                      ta it.ta
                                                             the
        FN 	se                                                                                                     re tht
                                                                                                                                                                                   Extion 	                      in
Meca Scien (FM), wa fir              July 1984. It mut be
all                                             a u.         s. Vis. Stte                                  given                 in

                                                                                                                                                            USPM also

                                                                                 ECFMG TEST RESULTS


       TOT A L 
                                                                                                                                                                                .July                 1.984
                                                                                                                                                                                                g)Janua:ry                1.985
     USFMGs . ...
                                                                                                                                                                            X.
     FNFMGs



                                                                           PERCENT FA I LED
Sou:rce :	              Educational COMMission                                                                      Eo:r Fo:reign
                        Medical G:raduates
The failur rate ofta                    EC tet (FM) wa exemly high
                 tw admstrtions, paicuarly
                                                   thos
                                             for USFM. Overl, abt
                                                                                           the new

pet
in    its firt

                 ta
               failedJuly 1984 an 85
        majority of thos
                                     in     Jan   1985 (se ch). Whle                               pet                         in



th firt-tim taer
the

             FM wer c:
                                the tet ar repete, who tyicaly do wors
                                                             , the failur rate is still                                                                        strikly high. In the
                                                                                                                                                                                mn,
ealy 1970s , when
   raed fro abt pet
rate                   pe.                                  60
                                                                                                to the U. S.
                                                                                              to 69
                                                                                                                                            in       greate                                                  the failur
.             ,. ., - -




           "Balm for Errat
           DisPtc ,
           10, 1982)

                           -,-          -""




                             April 13, 1980)

           "Dor SUed 14 TiI, ar No state Heain"
                                               ---




                                               Dors?
                                                             .,.. ­
                                                      .....................




                                                             DISCIG
                                                                 critics Fault Agency"                 st. ros
                                                                                         Chicaqo Tribe ,             May


           "Dors Prctice Whe Whs 'I" Detrit Fr Prs , April 1,
           1984)

As the abve newspape headlin illuste, state
medica diipline have be sujec to considerle pulic
                                                     rensible for                          bo scin
criticism in the 1980s. Tyicay they have be view as bein to lenent
   their        tr'bt
                  of physician am to      their      of                                    hain ca.
           ex ha
in                                                                      slow    in



'!e                                                        ha contrib to a stren
                                               :ict.(forItintace
inestigatory poer of
                                 had an
                                              bo                     grti    of supo poer);
                                                                               , the
                                                                                                                          of the


to exion
an
   imatey                    su              disciplin authorities (not
                 physician poin a " clea an pret
                          of their

pulic); a widen of their accs to disciplin actions daer" oter
                                                        to the
                                                                        notaly, the autorization
place (thgh matory reportin laws); an a broden of the
whch they ca                 ta disciplin action. '!e, ha upn
                                                       latter developt,
                                                                                                           ta



                                                                                                      followin an
                                                                                                                   9rin




ealier wave               of such activity

fications of unrofessiona corxct,
incomptece, an violations of contrlled
                                           such
                                                        in      the 1970s
                                                                      coerin
                                                                                sutace
                                                                                       led to nore detailed
                                                                                         matte as               se abe,
                                                                                                                   spi­
                                                                                     aror ex
                                                                                                                     1982, at
lea   20 state have                          amed their
                                laws to clarify
                                                                                               laws.       Since

                                                                                                                   the
                    disciplin.

upn whch physician ca                           be
D.in th sa peiod, th
as not ealier, the     ha beavaable to
              stict contrls on
                                           ha
                                main, as stateinfu
                                               goverts
                                                bo'
                                                 the                  bugets an
                                                                                        bo incr.
                                                                                       pennel ceilin.
                                                                                                                           But,

                                                                                                                           have

INCIENCE OFDISCI                                ACTONS

OVer the past few yea the nu of disciplin actions ta againt
physician ha be incrin. Nationa taations made by the Federtion
reea an            actions (exclud siIle admstrtive
                   incr

953 in 1982 to 1, 381
                                      in

                                           in 1984, an       in          of 45       pet       (se ch)
                                                                                                                actons) fro


                                    STATE DISCIPLINARY ACTIONS

     600

     400

                                                                                                       To tal
     200
     OOO
     800                                                                                         aneous
                                                                                          Mi sce II
     600

     400                                                                               Reuocations    oha­

     200                                                                               tions           & Suspensions

            9 82                                983                              984
Sou ce :              Fede ation o                    State Medical Boa
However, with a                       clos look at the abe ch, it is appt tht tier-1
actions the nore                          seiou actions inolvin reoctions , protions
suions - have be                             incrin        only slightly                  fro
                                                                                  ce, an stipu­
                                                                                                     600        in    1982 to 678

1984.          The bulk of the               incr        ha be                in     the miscllaneo, or tier-2
cateo:r, whch                    incorprate         such actions as reprim
late agrts. Inee , it is liky tht
even grte th                                              su
                                                                            incr
                                                                              the

                                                                         sues , beuse ma stipuate
                                                                                                           in        ths cateo:r
agrts ar          the Federtion'
              made on a confidential bais, with the ino:ction not
to the Federtion.
                                                                                                                                    report

haed  in                                pro
Some observers have dismissed thes send-tier actions, whch
                            , as bein reatively inconseqential. Yet
                                                                                   oft                                          are
          ino:r

actity, thy                      ar    oft qute signficat,
                                                volunta suener
                                                           inolvin a
a license for a period of t4                       or peps
privileges. Moreer, thes actions repret a practica rense by
                                                              a retriction of preiption
face with inficient inestigato:r reou an             me:r of may                             with the
caes tht have liner duin the heain an judcial pros for tw
more yea, whle the physician inolved have                                          contined to practice.
In view of the FM prolem' s p                                    ence    in         the   re of licein,    it
                                         grdute. an
pertinent to inquire if FM ar                                           nore likly to be        disciplined
  S. medical school            '!e ino:ction available is inconclusive.
                                                         Jan
Of 1, 166 disciplin actions report by the Federtion betwee
Sept 1985 , ou taations incate tht ony 638 spified the meca
                           grdute. Of ths to,             pet
the physician wer FMs. Whe ths is sot higher th
scool fro whch the physician

                  ar PM (accrd to the AM), the spred is topet
                                                                                                           167 or 26
                                                                                                              the 21


likynu of "
u. S.        physician who                                 th an
the                     not availables" to grt to conclude                                                                          an nore
               to be disciplined            th
                                      oter physician.
                                                                                                     tht FMs ar

TY OF VIOIAON
                                          preiptions            mot con viola­
The inpproriate writin of
tion upn whch
of all such actions
                                  diipli.                                is, by far, the
                                          actions ar ba, acctin for abt one-haf
                                    ta by state bo. Thes te to be seiou matte
inolvin not ony exceive or urecsa preibin of drgs to patients
bu also unawf ditribtion to  addict. They also te to be amng the
eaier         ki of ca for inesigators to develop,
triplicate presiption laws.                                                                esially                    in    state with

The send major
It app tht
                                      ty
                                       mot state ths cateo:r is ex,
                                                           self-ab of drgs anor alcool:
                                          of violation is the
                                                                 in both     ablute an
                                                          preibin
                                 in

proportionate term ,
th-fou                                    and toether with over-
                           or nore of all discipli. actions.

                                                                   is acctin for

exbo
Thghout the nation,                       pro      physician have been

                                                      designed to help
                                                          meca
                            attetion. Tyically, they are ru by
                   an reivin incrse
                                                                                     .iired
                      orgzations,
soieties or oter private                   Caiforna
                                    although in           they are
gr   sesion, signed agrts stipuatin theva, of paicipation, an
                                                 they generly inolve
                                                                                          te
by the      itslf. Whle the exct approches

agrts.
peiodc monitorin to
           The ext an
                                          as ty
                        tht paicipati physician ar adherin to the
                            of act trtmt offered          to                                                           se
 coidely,     with so pro,                   stsin intient ca
 an oter focin on outptient trtJt. oron,
                                                                             such as      in




 Whe the pro have teed to be wel-reived an apptly beeficial,
 they have met with so criticism an unerlyi skpticism. At
 thes inolve conce ab
 bevior tht ca be ha to their patients. '!e
                                     trte                                 physician bein                             to            sytheticaly for
                                                                                                                                      so state ha
                                                                                                                                                         the core

 be tighte of nonitorin practice anor                                                                          ret

                                                                                                                                        extion bo.
                                                                                                                                        in



 rensibilities tht thes
 Th sutatial                                  nu                          pro                         a clos
                                                                            have to report violations to the
                                                               of physician who have signed up for
                                                                                                               of the

                                                                                                                                             thes       pro
 their ow intiative,                                          withou bo inolvemt            made the, ha                                       latte
                        mrer
 esially seitive tht their paicipation is physician oft       am difficut one , since these
                                                                                                             issue an



             re ty
                                                                                                              sign up
 with the                                confidential.
 '!e                                                of violation             lJlyin
                                                                                 cadiiplin   actions coer a wide
                                                                                    inolvin the
                                                                            proen ar ca inolvinconviction
 range. Amng the nore proent ar
 se ab,
                                                                                                              for a
 felony or                     fraud. M.ch                          less                            incatecy
                                      whch ar anng                        the m: difficut ki of ca to develop.
 '!e mi                        rens                      in     th ar       of physician       incatece is placin                                        bo
 an          incrinly untele                                         poition as the    incidence of                       mapractice caes
 pulic conce abt the iJlications of thes
 decde the                    nu
                  of mapractce caes ha  be
                           ha jum fro $5,
                                             incrin       D.in the pat
                                                       rapidly an since
                                                                                               ca           incr.




 sa
 1979 the averge settlemt

 $100
      tbn, the co of preUI
            so ar.
              000 in

                                for so            abt $330 000. At the
                                       high risk spial ties ha exceed
                                                                                                    000 to



 Boards , it is increasingly felt, ca an shoud do soth abt
 sitution. Why, th, the mi                to date? At leat th major
 factrs se to be inlved: (1) the colexty, len, an cot of
 conce
                                                                   ths
                                                                                  re
 reer; (2)alleged incotece , even wher a mapractice judgmt ha be
                         th             tht te to cal for " clea an
                                      th sutaial buen of prof
                              the "preporrer
considerable variations anng phySician themlves abt wht; an
convincin"                     evidence rather                                                              of evidence"                                   (3) the

                          facets of mecine. One bo execve dir
accptle                                                  constitutes
su up hi             ma    ths ar
                            practce

                                      frutrtions
                                                    in




                                                         an
                                                                     in
                                                                                       by notin:
             "We        jus ca't
                      disciplin
                                                    se
                                         with mapractice. In fact, we'
                                 action ba on mapractice. It' s such
                                                                    to do
             never had a
             teer leg
             a mapractce
                                                   gr,
                                                   ca, te
                           even though we have a statute. So when ther is
                                                                    we      to look for another                bais for discipli­
             na action.

tath re
Yet,          in     the       of
                   intiatives tht
                                  co                            addessin risin mapractice cots,
                                                                               to be conseqential. Paicuarly notale
                                                                                                                                             so state ar
in

practice act. One allow              fin
                                           ar tw               amts
                                                                cod proe
                                                                 for a co
                                                                              tht Wiscnsin           made            in          1985              in   its meca
patient cae to see as conclusive evidence
                                      trtJt.
                                                                                                      of physician negligence



                                                                             bo         guty    tht a physician is
                                                         such ca. Another amt , peps
negligence of
prole                                                               '!s free     the mecal
                                                                                     nee to                          fro the                                hold a
signficat, proides the
proceedings, one
                        caus heain

                                                         bo    in

                                                              with a lesser buren of
                                                   tht cals for " a preponderce of
                                                                                      disciplin                           prof

                                                                                                                          evidence" rather
                                                                                                                                              in
                                                                                                                                                         even more

     clea an convincin                               evidence.
                    no ar laws in Caiforna an oron        tht authorize bo to COl
 Also of
                                    ta a clinca COtecy ex if
                                                    indeqte.ther  is reonale
                    st,
 a physician to
                                                                                                                        cause to
 beieve tht                    hi or her skil level is       The Caiforna effort, just
gettin
tw chce to Pas an ora ex condct bypros       tht
                                   inolves a rather intricate
                                                  allow a physician
      effort, uneJY for a
oron, bu                        of yea a
                                       , pael
                                         ca   of tw physician. The
         ha emloyed the latte beus it wa fou to offerora
                                             inolve      or writte
                                                      a fiD leg
                                                                      nu
bais for             suently denin a lice or iIin                                            discipline.
 SCCE OF DISCIY                                        ACrONS
DJin th pa few yea
bo   ha be risin, oft  nu of cons colain                 , the                                             bein reived by
bo        so  stte the es:tlist of toll-freegrte
cotrib tb th developt.

               an       in
                                        The
                                             colaint
                                                                 qute sutatially.                                  visibility of
                                                                                                                      lines have

Thes cons generte colaints toether with inormtion proided by other

govert agencies (mainy law enorct agencies) an inormtion obtained
diy bo  by       inestigators   to       for most of the disciplin
actions eventually taken by a board. Strikly few such actions
                                                              firt
                                                                      te acet
ca   to a bo' s attetion as a    of refers by meca societies , pe
review orgzations (PR), heath ca intitutions , or invidu heath
                                                                      ret
ca professionas.

In   cotin thon     sitution,
                                         so bo
                                    officials oft pointe to the PR

an esially unrove
the executive          of a
                                of
                                     dir
                                   inormtion.   The followin
                                     a heavily poate state, wod
                                                                                                                    cot,
enors by ma of his colleagues acrs the catJ:                     bo          in




    "We get ver litte fro th PR. !hey ta ca of their
      prolem   hou \mil they get out of
                               in

    lot nore inormtion fro them.               We shoud be gettin a                    ha.
Awa tht much
state have intiate, exed,                :irtt
                         inormtion is not bein Pased on to bo
                                                                   , ma
state have
tas.   They tyicaly
                          ta     or tighteed reportin laws. At leat

                            tht hositas inonn         re
                 such action since 1982. Mos of thes laws foc on hospi­
                                                       of any ches of a                      bo
physician'
staff. An incrin
anor seemts ,
                                   so   state
                     s staff privileges or
                                              of an
                                                      rn
                                                     resigntions
                                     the reportin of mapractice re
                                                                 fro the
                                                usly over a cein amt
                                                                      in




                                                                                         (e.g., $10, 000
                                                                                                                      judgmts
                                                                                                                    GA, $25, 000
                                                                                                                    diec to
                                                                                                             in

     N., $30                                   CA). latly, a               few state have reportin laws
invidu practitioner.

in                      000
        in




Nevereles , reportil laws oft have not had the
inert reistace to report on one'
                                                       imct.toWhen

aski why, on oft hea referce to the "broemoo of silence"         an
                                      an to a fea of leg liability,               pe
                                                                                               ex
even, it se
those who report
                                          in

                                         inormtion
                                                     state tht have
                                                           in
                                                                       grted crim an civil llty
                                                                 goo faith.
TH AISTTI               PRS
Boards   ar facin incrin strin in hain the discipliI workload
before them. It     uncan for
                is not            them to have backogs of         of caes                 hun
60-70 or nore         ca.
waitin to be assigned whle inestigators ar weighte da; with caeloads
                       Not swrisin1y, thos                         bo  of
                                                    officials who did not
identify the FM prolem as their to priority conce wer liky to give tht
billing to the  administrative boenec
diiplin rensibilities.                             cain out their
                                                       they face                 in




'!ey idenify a nu of factrs tht have contribte to ths sitution. The
risin nu of cons COlaints an, incrinly, the mate reportin
of mapractice caes ar mutiplyin the nu of caes to
Sever bugeta constrints ar ,preludi
their corp of inestigators an fro               ma bo fro add
                                                            COute teolog
                                                                                          be inestigate.
                                                                                              suficiently to

pro gea to quete
and training that could improve productivity over til.
                 tim contrib
           hearin prose
internal review and
                                                      ines'bts



                                                         to the
                                                   , as do the
                                                                                  in



                                                                                 tiI an COlexty
                                                                            cordtion
                                                                                                   An, labriou
with the Attorney Geer' s Office an the
seriou ches , to maze their due pros rights.            proity of physicianof,effort
                                                                               facin

'!us far the     rens
foc on ways of eain the   have be made to ths sitution have teed
                     thtbuen
                               on bo me. AIng th ches of ths
sort ar thos allowin          bo
                             to drw on the work of heain office,
delegte th corx of heains to invidu                an to hie :mca  me
aror leg constats to hep gude the us of inestigatory
Colorado , a che tht splits bo me' tiI betwee                                           inreou.
paels  se    esially proin. (See           II)     Ap     an heain
INRMON SHG
It app tht each of the state now proides the Federtion (an ther the
other States) wi th
reprets signficatregular
ago.
                  proess                  ca
                          reports on disciplin actions           Ths
                                   with the sitution tw to thee yea
                                                                                                    ta.
However, the     ext
boards do not report        lice denals.
                                  report vaies fro
                         of the actions                                               state to state.
tier-2 discipliI actons
                                              More notaly,       do not report         ma
were imosed with the
rationale offer for holdi
                             unerta thtthes ca
                                 if they did not inolve a fonn heain aror
                                               they wod be confidential. The
imotherwithou a
or lack of pulicity wer a key to
                                    back on

                       fonn heain. Yet ,
                                          the    agrts tht enled
                                                        is tht confidentiality
                                                                       discipline to be
                                                  the failur to report such                          caes
tht                                             obtain inormtion                                   cod proe to
be inrtt
jurisdction.

               state ar preente fro
              to      them if a disciplined physician decides to
                                                                                       whch
                                                                                         relocte to their
Fuenre    , fro state to state an even with states , there
considerable inconsistency in the type of disciplin actions
                                                                 to be
                             teta
relation to the ches an            the mein of the different ty
actions. The Federtion ha soght to prote so
                                   even    in



estalish a co syste, conce differt ty of violations,       ths area by
                                                                   consistency



bo
                                                                                              in

                                                               for the
       to us     in   reportin their disciplin actions to the Federtion. But
ma  state fai to us it or us it irarly, leavin it to the Federtion
to apply what appear to be the mot approriate coe. To foster grte
consistecy with the state , Caiforna a        of yea ago developnu
manual of disciplinary guidelines and model disciplin order an ha
rearly   reised it to kep pace with chin developts. (See
II)
                                 data ba
                                disciplinsees as the prim vehcle for the state
Whe the Federtion' s
to keep abreast of             actions ta      other state , follow-
cocation                                    in

            amng the state therl ves proides the vehcle for obtain
                   conce
nore detaed inormtion        the spifics of a cae. In ths conte,
on. It oc             it
there is substantia an,
                        th
                         awe,     effecive inormtion shin goin
                  the main of the fin bo order on a ca an
thgh nore inorm netwrki ng bo inestigators an admstrtors.
Wher   prolem



action wa
             gain accsform
to conce ca still
                   in




                gred           bo action or tier-2 caes, whertee:
                                 pe
                         to inonntion have oc
                                  agrt
                              in an
                                                               the
                                                    of confidentiality.

                                                                               , they have



Finally, within the state,                bo                               meca soieties an

liky
coes              re
Mecaid state agencies
      to do so with
       , an hoitas.
the gener pulic
                        of all

                        te         ta
                                                       tyicaly inorm
                                           form disciplin
                                                   actions. 'Iey
                            to other entities, such as HH
                          Mot
                        meca COty
                                   not to      an active pa   in
                                                                      less          ar
                                                                             , PR, ince
                                                                                    inorm
fewbo,     on the
                  or even the
                assuon tht pulicizin
value, see that disciplined physician
                                               of the actons. However, a
                                             the inormtion ha preventive
                                                               ar rearly
                                                       identified in news­
lette pulised by              the bo, meca soiety, anor other paies.

                                                    FI NOI
DJin the        1970s the                    th FL had contribte sign­
                                widesred adopion           of
ficatly to the sillification an rotinzation
      be
doin, it enled
wa
                          bo                   of :mca licein. In so
                        to devote more attetion to :mca discipline, whch
            a much more visible an contrerial issue. Yet, as ths shft
wa ocin, the FM prolem                     bebo.
                 di oft cons boarre
                                    to inteify an by 1982-1983 had
the dominating issue for most              Licein resnsibilities gaine:
renewed attetion,                     an                                    eneries tht      wod

ence.re                      to meca discipline. 'Ius ,
othezise be                                                          to the exent tht    the FM
prolem ca be
statial an effecive              oprtty
                        broght uner contrl, the
                                  effort in         the
                                                                           to develop more
                                                                of discipline woud see to


Whteer happ with            to FM, however, bo face a festein prolem
     the discipline ar tht may proe to be even greate th the FM prolem.

                         ta
in

Tht prolem           the phenomon of physician incotece. Bo , as
                 conce
not, have be
pulic  extions
                       sa                ths ar. But , unquestionaly,

                  for rets have be risin much faste th the bo'
                                       intiatives         in



capacity to peo:r. Imee, the incr approriations
                                                       anor authorities
                                    have ofte been with the unerta
tht bo wod do soth1;ect yea
                              :i
made available to        bo       in

                    to help ste the tide of 1rpractice caes.

Contribtin to the
incotece) ha
                                       se           of urency is tht meical
                                                    concein not
                                                                                 malpractice (or
ca, but also its cot. Ths is mot obviou with res quity ofeslatin
                         major illications                 meica    only the
                                                                               to the
  malpractice     ince
  practice to mize preum   an awa an the defenive mecine often
   also lnol ved
  cotece
  add
         is
                   the likihoo of succsfu
               the ex
                   ar
            deficient. '!eir mi              ex
                                          mapractice suts. But
                               generte by physician whos clinca
                                , ma ober beieve, unecsaily
                                an heath extu.
        billion of dollar to the nation'

  For bo            :irt pa in addrsin ths major issue
                                        legisgr
                to play an
              mut be sutatial ches                                                           , it is
                of mapractice ca.
  clea tht ther
  in their hain mut
                re
                                                          in the                         rues gover­
  available to them
  suficient
                    be incred.     pret ti1,tht
                                       clea
                                    At the    most bo lack
                                                 the
                     to devot seiou atttion to such
                                                       No less

                                                                             ca
  dizin their other diiplin am licein reibilities. without jeo­

                                             REcnTIONS
  Consen Rections
  Ba   on intial rections to the drft report an
                                                retions                                 fuer
  cons
  discussion within the
               on the followin
                               Departent of Heath an Hu
                                   retions:                                   Sericeam
                                                                                    , there is

     Pe Review Orzations (PR) reations an Medca caier intrc­
 tions shoud be amed to reire more
 meica bo ca   of
                                    exive an ti1l v repOrtin to state
                     lnol vin phySician miscndct or incotence.
 '!e ret of ths wod       fos bette cocation
                                 be to
 soth abt it.
                                                                                 amng thos

                 unrofessiona practice am thos
 position to identify
                                                                                                in

                                                                             with authority to do

    HH shoud notifv hositals of' the ches noted abe concein PR
 Medicae caier an shoud ure hositas
 state meca        bo                     to
                   case of '9hvsician miscondct or incotence. repOrtin to
                                                            be more active          in




       cocation of ths ki                                 grte attetionreinorc
 study has shown is a
 reportin laws tht have
                              problem
                              be Pase
                                              ar. maIt wod
                                             wod generte
                                                 in
                                                       of
                                                                        to wht ths
                                                              also help to
                                                           the state.
                                                                                the
       Federl leqislation     rein
 or its desi ee an allow states
                              HH
                                  to repOrt disciplin actions to
                                 to exclude fro Medica an Medicaid
phvs ician whose licees have be reoked or sued
 (H. R. 1868. S.   1323) shoud be encted as         by a state
                                                      auicky as pOssible.
Passage of this legislation wod facilitate more
sharing of       disciplin                      exenive am effecive
                       inonntion amng the state. It woud proide a
vehcle for fosterin (1) fuer an more timly
actions to a  cetr cleainou, (2) more exenive nationwide
                                                                    report
                                                           of disciplin
of inonntion on such action , an (3) more consistet defintionsdistribtion
                                                               of the
of violations     cotte by physician.
                   by the U. s. Depat of Edcation an the Veter
       Financial assistace
Adistrtion for meical edcation shoud follow the sa limtations set
fort     in   the vaiou health professional edcation assistace qrts        proq
of the Pulic Health 

attenin u. S. an    serice.

                      Cadian
                                       tht
                                        in  eliqibilitv shoud be limted to students
                                   meical scools.
'!

  sten  to att unccte foreign :mcasees
Such action would                      as a stilus for
                                         eliminate wht              in      effec nCM
u. S.                              scools
Caib ar.                                           the                                                           , mainy in

     Inor Geer Rections
Office of

'!e Office of
action. one concern
                           Inr Geer ha tw addtiona retions
                               dire meca edtion cots an                                                        for Feder
                                                                                                           the adeqcy of
education reived                       by FM. '!e oter conc                          inec                 Inca edcation
cots an the
not be practicin :mcine
                           illications of    suidizin the
                                                         in   the U.
                                                                                 trin  of inviduas
                                                                           S. Both retions     ar set fort                      who will

beCM:
   Medca                  fu
                    for the        mecal edcation
lwted to qrdutes of scools accited by HH or by a private
                                                         di
                                                          for FM shoud be
nate by HH. '!s shoud be acclished over a phase-in peiod. bo desiq­
                                                                                                     co
conce                 ab
     legislative action is a
               indetely      trined physician seek
                                                         di
                                    rens tht wod greatly reieve     It state
                                                                       wod                            lice.
proide a mesm for grdute of the bett foreign :mca scools to
ente the U. s. pathy to             an, if
thos tech hositas tht ar heavily depent on grduly,
                                                       lice      wod allCM
                                                      FMs to ma necsc
                                                                                ph             in



adjusts. . In New York, whch accts for one-th of all FM reidency
poitions in th U. S., a
Meca Edcation ures state policy diions tht woud
                                                   ret
                               report of the Goeror' s Cossion on Gradute
                                                         lead to a rection
   reidency poitions with the stte. '!eir effort wod , therfore, be
in

consistet with the abe                                 retion.
Actation
acctin       is practica if HH is allCMed to (1) accpt the decisions of
           entities whch it ha                              other co­
tries; (2) us the seice of a private acctin bo; an (3)           approed

                                                               us sta­
                                                                               aror          accte                 in



da tht ar sutially eqvaent to thos                acctin    u.
ca scools. Moreer wod inolve reatively litte govertas. :m­
if schools see the acctation we
cots .
                                                , it
                                                 to be the assoiate             re    used      in




DJin the
another
          cot peiod
       rection
tion caled for
                    on the draft report an retions
                whch ha since be enct into law. '!t
               rein cut reidents who have not passed the Foreign
Medca Gradute Extion in the Medca Science (FM)
                                                                                                                               re­
                                                                                                                               , we made



for hositas to reive Meca
cots.       1984 , pasage of the FM ha
                since
                                      of their diec meca edcationfu
                                                                 order
                                                       order to obtain
ECFMG certification, which is required to gain entry to an accted
                                                                                  be reqed                in
                                                                                                               to do so         in




U. S. trin pro. '!e effec of ou
to impose the same requiremt
                                                    an the new law is
                                                                 on cuent
                                                                               retion
                                                                                FM reidents an                                   s who
obtained an ECF
reidency                pro.
       ceificate prior                 to July 1984, but have not yet
                                                                                                                          on

                                                                                                                               ente
'!s proision               wa             the Conslidate Omus Renciliation Ac

1985. HCFA                acties estimte tht it will save $41 million over a five yea
                                    contained            in



peiod         (bein            in        1987.
U. s.
      HCF shoud consider
                      Medca uon coletion of reiden.
                                                          ex
                                 the effec on inir meca edcation
cots of FM bein suidized who ar ineligible to practice              the                                          meicine   in




                                                                         ir
          or paicipate                  in



With lare Feder deficits , it wod se pruent for the Feder govert
as a gener rue to pay for the         :mca edcation cots of only those
reidents who will practice          ths cotJ or who will be eligible to
                                                               :mcine

pacipate in Meca upn caletion of their reidency.

                                                                                 in




Beyond the abe  retions gove:rts an private orgzations
                                for the Feder Goent, we offer the

conceed with meca lice an diipline.
following recoIlendations to state


   '!e Actation Cocil for Grdute Medca Edcation (ACG) sta
sc
shoud be amened to

mace an condct.
                   re
        of reidents an (2) inorm State meca bo of reident peor­
                          tht hositas (1) conduct thoroCl credential


SUch acton
trainin             pro  by the                        reidency
                 wod reinorc tech hosita an meca scool re­
                                       private                 orgzation rensible                      for   acctin
spnsibilities in ths ar an wod proide an added
                    iJrtt
It wod also see as an         sign of the :mca coty
                                                  of overight.
                                                     I S conce
                                                                                                             me
ab the          the licein fuction.
                    inteity of

  Residencv trin lice shoud be reir                                                                   by all states

Although reiden-4                     ar
cians, practicin :mcine. Acrdly, all Stte             ar also physi­
                                                stuents

                                                    shoud have the
                                                                         in           suis               bo
                                                                                                 settin, they

autority to lice them an, if necsa, to diipline them.
    '!e Federtion ofstate Medica Bo-r shoud (1) sen its discipli1
             to all Medica caier. Medicaid aqencies. an Peer Review
action report
Orzations. (2) proide additiona qudace to state
more effecive
                                                       on how to be
                addrsin cases inolvin pOsible meical malpractice
                            in                                    or
                                                                                                             bo
incompetece. an (3) intenifY its effort to prote qreater inter-state
consistency both

the bais of
                 defin
            thes violations.

                                 in           disciplin actions on
                                                                 violations an             in   i:in
!he Federtion ha played an iJrt pa in helpin to imroe the licee


one where fuer Federtion leaderp iswate.               :irtt
an discipline practice of the state. The abe thee area ar
                                                        iJrtt
                                                Paicuarly
her wod be an asselin an distribtion of bet practice conce the
area of mapractice an                                     inCOte.    '!s cod include spific statuto:r
ches tht cod                          be made             instate :mca practice act.
     Renew fees chared to practicin phySician shoud be incrsed suffi­
cientl y to              surtbo.

                   exion an ilroemt of the enforct activities of
Most
    incr
fees ar
         re
the state meical
 bo         face a
prote the pulic. Until ths shortfall tht seerly li1ts their capacity to

                               sitution is addesse an the       reew
                   to a level tht far exce the cuent $50 averge , the
                                                                                                                      an
mi.
possibilities for major overall                     peormce will                 imroemt         in   bo
                                                       APIX

                                           BACKGR AN MEOOOLO

The liceItandatediscipline
govert.                    of physician is a trditiona fuction of state

                   back to the pioneein effort of the Amica colonies,

such as Virina' s :mca practce act of 1639. But it did not gain pe­

manence until the
practice act       (1873) an
                             late 1800s,
                                the U. S.
                                                      when
                                                     SUrem
                                                                  Te
                                                                   CoPase the firt moer meca

vaid exerise of              pcer (1889). upeld West Virina' s act as a

                          state police

In retion th   of
the Meca an Mecaid
                       trditiona state role , Congs , when it estalished
                                   1965 , left it to the states to detee
SUeqently, Congs ha           eJ
whether a physician is legly authorized to

sanctions on physician an oter heath
defrauded thes           pro.
                                        pro              in



                                   HH an its preecsor (HE) to
                                                             these
                                                   who have abed
                           However, the Feder govert ha continued to
                                                                         paicipate



                                                                        ca pro
                                                                                                     in
                                                                                                                           pro.
                                                                                                                            iIse
depe on the state to see as the disciplin agent for tressions tht
do not       diy
              relate to the Meca an Mecaid
                                                                                     pro.
          have be proidi vauale proion
Thus, state
tw FederlY fued                pro. mi
                             proion '! ha   be            these                      for paicipats                         in


Feder govert an at only
the co have be coer by fee
The   gr
                                 on physician.               iI
                                               at no cot to the
                              cot to state govert. Nealy all
        of Meca an Mecaid, to the point wher they now acct for
about one-four of U. s. health
inte                                        , ha foste Feder
         th effeciveness of state meca bo. However                ca extu
di           in

three General Accounting Office (GAO) report have both
             th    inte.
                                                       the 1980s                                                 in

                                                                                                             inteified an
Tw of the report,
1985, raise  conce abt the quityNovem
                            one pulished
                                            1980 an     in
                                                               Sept
                  nu
                                                                                          the other                   in
                                     of the edcation bein recived
incrin
se              of U. S. citizen who
                the Unite state. Both report ured the Feder govert
                                                                  att
                                           foreign meca scools anbythen
                                                                    the

to take action tht wod help state :mca licein
      lice          in



effecively with
                                                      agencies dea more
                         ths matte.


                report,
The other GAO
conce        ab                        May 1984, helpe crstalize nationa
                                     published

              physician who have their licees revoked or
state an who then mo
                                                             in


                                                                      one
lice.
tht , amng'!s
                                                           whch  they
                                                                                                          sued                  in




                                                                  re
                                      their practice to another state

                report contribte to the intrction of Feder legislation
                          th,
                                                                                                     in


            other         wod (1)           state licein
all their disciplin actions to the HH Seceta (or a designee to report
who wod then she tht inonntion with other entities , includin therf),
                                                                                                          bo
licein            bo;
                  an                                            all state
                      (2) allow HH to exclude fro Medcae or Mecaid an
physician whos lice ha be reoke or sued by a state
legislation Pase the Hou of Repreentatives in July 1985 (H-1868) an'!s is
                                                                                                                  bo.
bein considered in the Sente (S-1323).
I:in
in a
     th sa
         nt peiod, the
        of actvities
                         bo
                  state meca
                             tht                             Inr
                                                 Geer (OIG) wa inolved
                                        Office of the
                                 made it incrinly awae of the liItations
                              wer optin.
with whch
the U.   Po     Inrs
the scs inolvin (1) fraudent:mca
         s.              an the Feder Buu                  conce
                                                                            out of the OIG' s work with
                                                                           of Inestigation
meca scools an (2) the admstrtion                       two Caib    crentials fro
(FL) us          state
                 by theit be   appt
capailities of no state wer qute
                                      tht the crentials
                                                       Licein    Ex
                                                                  of the Federtion
                                                        verifications
                                                            s effort
                                  liIte. Also , out of the OIG'
in imposin clos to 1, 000 exclusions on heath ca proider, it
appt   tht  cacation
siona practice an those with the authoritya to
                                            poition to witness 1.profes­
                                               do soth ab it
                                       betwee those          in


indeqte.
Given thes        developts, the Ilr Geer' s             Office condcted a pro
inion            to help HH an
up-to-date overview of
                                       oter intete   paies
                                     state medical licee angain a brodly baed
presu    bein exer, the issues bein addsed, the discipline                                        of the



                                                                                      ta ex,
and the effects being                           ches ta
                                     achieved. SUch          an overiew , it is
                                                                                                 place
                                                                                                    will
facilitate an anysis of
Stte levels.
                        policy    diions tht shoud be                       at Feder an
'!s  report prets the major
atey on the       lice
                  an             of the       fin
                     discipline sper , an concludes It foces sepa­

                                                    with so assess­
                                                                     inion.
mets conce the tw sper an                               retions
                                               calin for action by
Feder an state goverts an by private orgzations.
'!e inonntion ba surtin the pretation emes fro four maj or
of lnqu:
    Reiew of litetu an data ba , includ jou aricles
    boks goverta report, an statistica c:ilations of pulic
    an private orgzations.
    Visits to       foustate (CA , 00 , FL, IN , MA , MJ , NJ, NY, NC , OR,
                                             bo mefor
    dirs , an staf; diecrs of cetr agencies rensible
    PA, 'I , vr, WI), inolvin discsions with meca


    representatives of medical societies,    prog;
    medical boards; directors of hospital residency
                                              reiew                pe
                                                                    orgzations
     (PR), state                               , an Medca contrctors. '!e state
    visite accunt
    th u.

                      ab pet
                           Medcaid agencies
                             for            58       of the physician liceed in
    Telephone discsions with meca bo                                                   another
    state        (AL, AZ , cr, DE, IN, Kg , MI, VA, WA, WY)
                                                                   diors         in

                                                                             an the District of
    Columia. '!ese jurisdctions
    an    lice        in    the U.
                                                      acct
                                                  for 14                   pet   of the physici­

    Discsions with representatives of a wide rae of orgzations an
    agencies tht have           be
                           addrsin meca               an discipline
    issues. 'Ies include the Accedtation Cocil for Gradute  Medca
                                                                      lice
    Education; Association of American Medical                              Colleges; America
    Hospital Association; American Medical                           Assciation; Edcationa
Cossion for Foreign Meca Grdute; Federtion of state Meca
Boards; General Accounting Office; Liaison Cottee on Meca
Education; National Cleainou for Lice, Enorct
Reation;
                         Pr.
           Nationa Cossion for Heath Ceifyin Agencies;
the Nationa Reident Matcl
                                                                APIX II

                                                              BE PRCTCE

Dlin the     co               of the             pro inion,intet
                                                            we identified may state practice
ar a  nu
that would appear to be of considerle
           of such practice in fou brod                    ar. acrss the C0tJ.                                         Below

FACIG '! DISCIY PRS
  Californa ha adop a set of noel disciplin gudelines whch
  include minimum and maximum recommended peties for each of 24
  statuto:r violations with the bo'   authority. '!e set includes
    moel disciplin order.

    heain Paels. '!e form Paels admste into
    Colorado and Vermont divide their          sepate inqu an
                                          the inestigato:r phe
                                                                               bo
    complaint processing, whe the latte corrct the fonn heain.
    Invidu
    ca will see                      me
              boon ony one.see on bo Paels, but for an invidu
                                               issuce of
    Masachustts statute (ML 112-64) preclude the
    stay duin the app                        bo.  of a        fil       decision by the

    Illinois maintains a diar contrl syste uner whch the inesti­
    gator of a                            protion is reed
                             complaint which resul ted

    required to monitor continuing
                                                                                     in



    at six nonth
    of a

    pued.
                   report is
                If the               corr,           re
                                                    te, usly
                intes. Also , at the bo' s disction, the intiator
         colain report prolemtoisse
    intes.                              proess report at six nonth
                                              the
                                                                           compliance with the


                                                                                               colaint file is
ADG TH DISCIY PRS rr DIFF SI'TIONS
    Florida       em the
    ceed practitioner bo    to issue ce an desist order for uni­
                      as an. admstrtive       whch, if violate,                           re
    fODn a bais               for the state Attorney' s petition to the                         co.
    New Jersey,               New York, an Florida
    administrative fines or penalties , up to $2, 500
                                                               have disction    bo                          to asses
                                                                                               pe other licee
                                                                                                           New
    Jersey.  The moneta assessmt is additiona to any
                                                                                                    count     in



    action the          bo may ta.
                   pue
    Pennsylvania may
              ar        an
                                                    a loc new-a display adverisemt

                  wher a disciplined physician reides anor prac­
                                                                                               in



    tice. Affirtive pulicity ca also be a negotiatin
    pape     in



    pros of reach an agree settemt.                          the                                    point     in




    Texas and Florida
    those with out- of-state addresse
                                             che lice renewa      whch ar higher for
                                                       th forfeereidents. '!e Florida
    fee is    cutly $1, 000                       for the 2-           yea reistrtion.
    New
    an tim
           Jery excludes fro
                  spt           in    practice
                                                    tim
                                                         in
                                                               cote
                                                               another state.
                                                                               tc
                                                                              fufill1t of a suion
PRCTG TH         IN       OF TH LICESING               PRS
   Missoi an Wiscnsin ar amng th state whch have
   an exed                                                The fo:r
                                                                         retly reised
                                                                      lice.
   diy
   ar
                   uneqvoc
                ask for
       histo:t. They
                                      physician
                    their application fo:r for

                        re                   aner
                                   to calete licee an disciplin­
                          detailed edcation an work histories whch
   ar reiew for consistecy, an they include brod authorizations an
   waiver      sttets.

   Florida requ pena inteiew of applicats who met defined

   hito:t of      in,
   criteia (e. g., grdute of a paicuar foreign scool, those with a
                          or                attce
                                        at nore
   The inteiew ca dete inormtion whch fais to suace thgh the
   pape credentialin pros: Eplis proficiency, for exle.
                                                                 th
                                                     one :mca scool).


   New York issued thgh its Depat of Heath a                   (84-90)
   clarifyin heath facility rensibilities for physician crentials
                                                                         mera
   verification. As a state policy, the heath facility ha rensibility
   to assue tht all staff, includ physician, are proly trined an
   quified an have th approriate crentials.
ADDRSrnG ISSU OF      IMAI/rnCD FHSICIS
   Caiforna diver         fro the fonn discipl:i pros cein physi­
   cian who       paicipate
   gr. uner a signed agrt      voluntaily

               Paicipats generly
                                                 reilitation pro
                                                      in   a State-nm
                            contine to practice duin rehilitation
                                   with the diverion pro, whch
   includes accptin raom dng ab tets. Som
   an   reer

                                                    entrts to the
   pro     ar sef-refer.
   low saon figu for dng
                           The succs of the pro
                                         Caiforna (JAM-\an. 1983).
                                             sef-ab         in
                                                                   40% of
                                                                            is refleced




   Oron opte a monitore trtIt pro thgh the state :mca
   assoiation. Unlik p          ma               in

   alcoholism an chemca depeency pets defer of fonn
                                                           state, the Oregon approch to
   discipl:i action duin a
   up of the chnic illness. The
                                             strct
                                      long-te trbnt an follow-
                                               pro
                                       gives major        to             emis                   in­
   tient trtmt an to follow-up nonitorin.
   Nort calin an other state have
   cotecy    co  into question to an
                                      refer
                                     edcation
                                               som physician whos
                                              an retrin pro
   directed by                                           Marylan.
                    Dr. Edward Kowaleski at the University of
   Personal
   invidu sujec          retrin
                 evaluations of
                   an report to the potetial are discsed
                                       referin bo. The pro
                                                                                             with the

               succs
   report an 85%              roin both quity of ca an safety.
                              rate,



                       state opetin               physician pro
   uner a mera of unerta with the state meca
   Wisconsin is another                                      an i1ired
   portion of the pro attractive
                         :r thghtotwyouer
                                      rehilitative
                                           physician who develop
                                                                                       society. A
                                                                                facilities



    alcool an drug prolem duin reidency. The bo is finin tht
   Milwaukee has proved

    so licee          applicats ar
    assist these persons to enter the
                                                i1ir medical
                                                     physician an is attemtin to
                                                                             the
                                                                   IDlltrea though
    reilitation p
